App. 1
APPENDIX A
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 20-11011
Non-Argument Calendar
-----------------------------------------------------------------------

D.C. Docket No. 1:19-cr-00077-LMM-RGV-3
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
EDUARDO LOPEZ, a.k.a. Lalo,
Defendant-Appellant.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Northern District of Georgia
-----------------------------------------------------------------------

(November 19, 2020)
Before JORDAN, GRANT, and ED CARNES, Circuit
Judges.
PER CURIAM:
Eduardo Lopez pleaded guilty to conspiracy to possess with intent to distribute at least 500 grams of
methamphetamine. Lopez appeals his conviction and

App. 2
sentence, contending that the district court erred by
disqualifying his original counsel and by rejecting his
request for release based on his allegedly unlawful
post-arrest detention. The government moved to dismiss Lopez’s appeal or for summary afﬁrmance, contending that he waived his right to appeal the district
court’s rulings on those two issues when he entered an
unconditional guilty plea.1
Summary disposition is proper when “the position
of one of the parties is clearly right as a matter of law
so that there can be no substantial question as to the
outcome of the case.” Groendyke Transp., Inc. v. Davis,
406 F.2d 1158, 1162 (5th Cir. 1969). We review de novo
whether a defendant’s guilty plea waives his right to
appeal adverse rulings of pretrial motions. United
States v. Patti, 337 F.3d 1317, 1320 n.4 (11th Cir. 2003).
We have long held that “[a] defendant’s plea of
guilty, made knowingly, voluntarily, and with beneﬁt of
competent counsel, waives all nonjurisdictional defects
in that defendant’s court proceedings.” United States v.
Yunis, 723 F.2d 795, 796 (11th Cir. 1984). See also Class
v. United States, 583 U.S. ___, 138 S. Ct. 798, 805 (2018)
(“A valid guilty plea also renders irrelevant—and
thereby prevents the defendant from appealing—the
constitutionality of case-related government conduct
that takes place before the plea is entered.”); Tollett v.
Henderson, 411 U.S. 258, 267 (1973) (“When a criminal
1

The government also moved to stay brieﬁng pending our
resolution of its motion. We will deny that motion as moot because
we summarily afﬁrm Lopez’s conviction and sentence.

App. 3
defendant has solemnly admitted in open court that he
is in fact guilty of the offense with which he is charged,
he may not thereafter raise independent claims relating to the deprivation of constitutional rights that occurred prior to the entry of the guilty plea.”).
In light of that authority there is no substantial
question that Lopez pleaded guilty knowingly and
voluntarily and as a result waived the claims he presents on appeal. Id. Lopez confirmed at his plea colloquy that he understood that he was under oath, that
he was waiving his constitutional rights, and the consequences of pleading guilty. There is a “strong presumption” that a defendant who enters a plea after
proceedings that follow the requirements of Fed. R.
Crim. P. 11 does so knowingly and voluntarily. United
States v. Gonzalez-Mercado, 808 F.2d 796, 800 & n.8
(11th Cir. 1987). Lopez has not rebutted that strong
presumption.
Although a defendant who pleads guilty can preserve appellate review of a non-jurisdictional defect
“by entering a ‘conditional plea’ in accordance with
Fed. R. Crim. P. 11(a)(2),” United States v. Pierre, 120
F.3d 1153, 1155 (11th Cir. 1997), Lopez did not do that.
A defendant who seeks to enter a conditional plea must
obtain consent from the government and the court, and
he must reserve the right to appeal in writing. See Fed.
R. Crim. P. 11(a)(2). Lopez did not do any of those
things.
Because there is no substantial question that
Lopez waived his claims when he entered an

App. 4
unconditional guilty plea, we GRANT the government’s motion for summary afﬁrmance and DENY as
moot the motion to stay the brieﬁng schedule.

App. 5
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
UNITED STATES
OF AMERICA,

:
:
:
v.
CRIMINAL ACTION NO.
:
FREDRICO PACHECO- : 1:19-CR-o0077-LMM-RGV
ROMERO, et al.,
:
Defendants.
:
ORDER
(Filed Apr. 18, 2019)
This case comes before the Court on Defendants’
Objections [81] to the Magistrate Judge’s disqualiﬁcation order, which disqualiﬁed all six Defendants’ current counsel from representing them due to actual and
potential conﬂicts of interest. See Mag. Order, Dkt. No.
[76].
Federal Rule of Criminal Procedure 59(a) dictates
that a Court may refer to a magistrate judge any matter that does not dispose of a charge or defense. Fed. R.
Crim. P. 59(a). A party may object to the magistrate
judge’s determination on a non-dispositive issue, but
the district court will only modify or set aside the determination if it is contrary to law or clearly erroneous.
Id. As the Magistrate Judge’s disqualiﬁcation ruling is
non-dispositive, the Court will review it under Rule
59(a).

App. 6
This Court finds that the Magistrate Judge’s Order is neither contrary to law or clearly erroneous.
Defendants’ main argument is an apparent misunderstanding regarding the types of conﬂicts the Court may
consider in assessing whether “there is good cause to
believe that no conﬂict of interest is likely to arise,”
Fed. R. Crim. P. 44(c)(2), as Defendants complain that
the “Magistrate imposed the extraordinary remedy of
disqualiﬁcation based on purely theoretical conﬂicts of
interest.” Obj., Dkt. No. [81] at 2.
However, as the Supreme Court and the text of the
rule itself conﬁrms, the question is whether the conﬂict
is “likely” or whether there is a “serious potential” for
conﬂict, not whether the conﬂict is actual or provable
at the time of disqualiﬁcation. Fed. R. Crim. P. 44(c)(2);
Wheat v. United States, 486 U.S. 153, 164 (1988) (“The
District Court must recognize a presumption in favor
of petitioner’s counsel of choice, but that presumption
may be overcome not only by a demonstration of actual
conﬂict but by a showing of a serious potential for conflict.”). As it is evident from the record that there are
at least serious potential conﬂicts – if not actual ones,
the Court is convinced that the Magistrate Judge correctly considered the conﬂict potentials in this case
and determined that waivers were not an appropriate
remedy. Thus, Defendants’ Objection [81] is OVERRULED.

App. 7
IT IS SO ORDERED this 18th day of April, 2019.
/s/ Leigh Martin May
Leigh Martin May
United States District Judge

App. 8
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
UNITED STATES
OF AMERICA

CRIMINAL CASE NO.

v.

1:19-cr-00077-LMM-RGV

FREDRICO PACHECOROMERO, et al.,
ORDER
(Filed Mar. 22, 2019)
Defendants Fredrico Pacheco-Romero (“PachecoRomero”), Carlos Martinez, Eduardo Lopez, Victor
Manuel Sanchez, Jorge Mendoza-Perez, and Santana
Cardenas, collectively referred to as “defendants,” are
charged with conspiring to possess with intent to distribute methamphetamine, in violation of 21 U.S.C.
§§ 841(b)(1)(A) and 846. [Doc. 41].1 Attorneys Jerome
D. Lee (“Lee”) and S. Eli Bennett (“Bennett”)2 of the law
ﬁrm Taylor, Lee & Associates, LLC, have represented
all six defendants since the commencement of the case
1

The listed document and page numbers in citations to the
record refer to the document and page numbers shown on the
Adobe ﬁle reader linked to the Court’s electronic ﬁling database,
CM/ECF.
2
Bennett’s name is listed on the docket as “Stephen Elijah
Brown-Bennett,” but he uses the name “S. Eli Bennett” in court
and on pleadings. See [Doc. 38].

App. 9
upon the ﬁling of a criminal complaint. See [Docs. 1, 2,
5, 8, 11, 14, 17, 38, & 60].3 After Lee and Bennett appeared as counsel for the defendants at arraignment,
[Docs. 64-69], the Court scheduled a hearing pursuant
to Rule 44(c) of the Federal Rules of Criminal Procedure to inquire about the propriety of the joint representation of the defendants, [Doc. 74], and the
government subsequently ﬁled a motion to disqualify
counsel, [Doc. 70]. Following the hearing on March 14,
2019, [Doc. 72], Lee and Bennett ﬁled a response to the
government’s motion to disqualify, [Doc. 73], and the
government has ﬁled a reply in support of its motion,
[Doc. 75]. For the reasons that follow, the government’s
motion to disqualify Lee and Bennett, [Doc. 70], is
GRANTED.
Rule 44(c) (2) of the Federal Rules of Criminal Procedure requires the Court to “promptly inquire about
the propriety of joint representation,” and to “personally advise each defendant of the right to effective assistance of counsel, including separate representation.”
Fed. R. Crim. P. 44(c)(2). “Unless there is good cause
to believe that no conflict of interest is likely to arise,
the court must take appropriate measures to protect
each defendant’s right to counsel.” Id. “ ‘Appropriate
measures’ include requiring ‘that an attorney who represents two co-defendants cease his representation of
3

On February 15, 2019, Allison Dawson of the Federal Defender Program was appointed to represent Pacheco-Romero for
his initial appearance only, [Docs. 20 & 21], and he was granted
time to retain counsel of his choice, [Doc. 22]. On February 21,
2019, Bennett ﬁled a notice of appearance on behalf of PachecoRomero. [Doc. 38].

App. 10
either or both of them.” United States v. Garner, Criminal No. 12-cr-65-JMH, 2013 WL 99396, at *2 (E.D.
Ky. Jan. 7, 2013) (quoting United States v. May, 493
F.Supp.2d 942, 944 (S.D. Ohio 2004)).
The Court conducted the inquiry required by
Rule 44(c) on March 14, 2019, including an ex parte
conference with counsel and defendants to explore
the propriety of joint representation of all six defendants in this case. [Doc. 72]. Each defendant was informed of his right to separate representation by
counsel of his choice and the opportunity to retain another attorney or to have court appointed counsel if he
could not afford to hire his own attorney. [Id.]. After the
Court discussed with the defendants various examples
of conﬂicts of interest that could occur with joint representation, each defendant afﬁrmed in open court and
by executing a written waiver that he wanted to continue to be represented by Lee and Bennett and their
ﬁrm. See [Doc. 73-1 at 4-21].
Although a defendant has a presumptive right to
be represented by the attorney of his choice, “this right
is not absolute, but is qualiﬁed by the judiciary’s ‘independent interest in ensuring that the integrity of the
judicial system is preserved and that trials are conducted within ethical standards.” United States v.
Henry, 307 F. App’x 331, 334 (11th Cir. 2009) (per curiam) (unpublished) (quoting United States v. Ross, 33
F.3d 1507, 1523 (11th Cir. 1994)). Thus, counsel may be
disqualiﬁed from representing a defendant where an
actual, or even potential, conﬂict of interest is present.
Id. (citations omitted); see also Wheat v. United States,

App. 11
486 U.S. 153, 164 (1988) (“[A] showing of a serious potential for conﬂict” overcomes presumption in favor of
defendant’s counsel of choice.).
The Court cannot ﬁnd that there is good cause to
believe that no conﬂict of interest is likely to arise from
the joint representation in this case and concludes that
disqualiﬁcation of Lee and Bennett and their ﬁrm as
counsel for all defendants is required because there is
a serious potential, if not actual, conﬂict of interest in
their joint representation of all six defendants, who are
charged in a drug trafﬁcking conspiracy. The criminal
complaint in this case describes the differing roles the
defendants allegedly played in the drug trafﬁcking
conspiracy, [Doc. 1], which creates a signiﬁcant potential conﬂict of interest from joint representation because each defendant does not stand on equal footing
with respect to their potential culpability and opportunity to negotiate a resolution of the pending charges
against them. For example, as commonly occurs in conspiracy cases, the government may be willing to offer a
favorable plea deal to one or more defendants in return
for their cooperation and testimony against co-defendants, and Lee and Bennett could not fulﬁll their duty
to effectively represent all of the defendants by advising one defendant to take a plea deal that would be
detrimental to their other clients. United States v.
Dempsey, 724 F. Supp. 573, 578 (N.D. Ill. 1989) (citation omitted) (“When one attorney represents multiple
defendants, however, plea bargain negotiations are
fraught with danger of conﬂicts of interests.”).

App. 12
Lee and Bennett suggest that there is a tactical
advantage to joint representation during the pretrial
portion of the case so that defendants may more effectively challenge the search warrants used during the
investigation, see [Doc. 72; Doc. 73 at 7-9], but the very
decision of whether to ﬁle pretrial motions or pursue a
potential plea agreement has very real consequences
in this district as the United States Attorney’s ofﬁce
regularly reserves the most favorable plea terms for
those defendants who do not ﬁle pretrial motions.
Thus, even the pretrial strategy being jointly pursued
by these six defendants presents a strong potential
conﬂict of interest given their different alleged roles
and levels of exposure and corresponding potential opportunities to negotiate a favorable plea agreement.4
The joint representation of individuals with differing
alleged participation in the charged conspiracy “could
force defense counsel to forego certain strategic options
4

The criminal complaint indicates that law enforcement
agents executed search warrants at six different locations that
were associated with different defendants or their relatives, [Doc.
1 at 17-18 ¶ 33], and the amount and type of evidence recovered
during the searches varied at each location, [id. at 18-21 ¶¶ 3440], which again underscores the potential conﬂict of interest
arising from the relative culpability and risk of conviction among
these six defendants that must be considered in evaluating
whether to challenge a particular search by establishing a reasonable expectation of privacy in the location searched. Considering
the different circumstances under which defendants were encountered during the searches as described in the criminal complaint,
[id.], the common strategy being pursued begs the question
whether the interests of each individual defendant are being adequately protected by the joint representation. Dempsey, 724
F. Supp. at 578.

App. 13
that might otherwise be pursued if defendants were
separately represented.” Dempsey, 724 F. Supp. at 578
(footnote omitted).
If the defendants choose to go to trial, a serious
potential conﬂict of interest remains with joint representation. Should any defendant elect to testify in
his own defense, his testimony could prove to be harmful to the other defendants, and Lee and Bennett
“would be faced with the prospect of examining or
cross-examining a witness whom he represents and
whose interest lies in direct conﬂict with his other client.” Garner, 2013 WL 99396, at *2. Lee and Bennett,
who are associated in law practice, have represented
all of the defendants since the case initiated with the
ﬁling of a criminal complaint, and because there is an
irrebutable presumption that they received conﬁdential communications from the defendants during the
course of that representation, see Freund v. Butterworth, 165 F.3d 839, 859 (11th Cir. 1999) (citation omitted), Lee and Bennett have “divided loyalties that
prevent [them] from effectively representing the defendant[s],” Ross, 33 F.3d at 1523 (citation omitted). As
the Eleventh Circuit explained:
If the conﬂict could cause the defense attorney
improperly to use privileged communications
in cross-examination, then disqualiﬁcation is
appropriate. Indeed, it is also true that disqualiﬁcation is equally appropriate if the conﬂict could deter the defense attorney from
intense probing of the witness on cross-examination to protect privileged communications

App. 14
with the former client or to advance the attorney’s own personal interest. In short, the
court must protect its independent interest in
ensuring that the integrity of the judicial system is preserved and that trials are conducted
within ethical standards.
Id.
Lee and Bennett emphasize in their response that
the scope of their representation is limited to the pretrial portion of the case and “once the current beneﬁts
of concurrent representation are exhausted through
the pretrial process, [the defendants] will revisit the
issue at that time.” [Doc. 73 at 11]. The notice of appearance Bennett ﬁled on behalf of Pacheco-Romero
does not include such a limitation in representation,
[Doc. 38], nor does the docket reﬂect entry of a limited
appearance upon arraignment of the defendants, see
[Docs. 64-69], and generally, such limited appearances
are not permitted in this Court.5 Moreover, as the government points out, [Doc. 75 at 3 n.2], the prospect of
new counsel appearing for each of the defendants after
pretrial motions have been litigated could result in delay of the trial of this case, contrary to the Local Rules,
which provide that “[c]ounsel will not ordinarily be allowed to withdraw after pretrial or at a time when
withdrawal will cause a delay in the trial of the case,”
LCrR 57.1E(1), NDGa. Indeed, the Supreme Court recognized in Wheat that trial courts need not wait for an
5

The Court also has reviewed the letters of engagement for
each defendant counsel has submitted under seal and does not see
such a limitation in representation.

App. 15
actual conﬂict to emerge before disqualifying counsel
because “[n]ot only the interest of a criminal defendant
but the institutional interest in the rendition of just
verdicts in criminal cases may be jeopardized by unregulated multiple representation.” 486 U.S. at 160.
The Court is mindful that a defendant may waive
conﬂict-free representation, but courts are not bound
to accept the waiver. See Ross, 33 F.3d at 1524 (citation
omitted). In Wheat, the Supreme Court recognized
that “in the murkier pre-trial context when relationships between parties are seen through a glass,
darkly[,] [t]he likelihood and dimensions of nascent
conﬂicts of interest are notoriously hard to predict,
even for those thoroughly familiar with criminal trials.” 486 U.S. at 162-63. Thus, “court[s] must be allowed
substantial latitude in refusing waivers of conﬂicts of
interest not only in those rare cases where an actual
conﬂict may be demonstrated before trial, but in the
more common cases where a potential for conﬂict exists which may or may not burgeon into an actual conﬂict as the trial progresses.” Id. at 163.
The full range of potential conﬂicts of interest can
be difﬁcult to assess at this early stage in this case, but
the foregoing discussion demonstrates that there are
very obvious potential, if not actual, conﬂicts already
present, and the Court need not wait until these conﬂicts become even more certain to disqualify counsel
from further representation of all defendants, despite
the waivers executed by the defendants. Thus, the
waiver option has been considered, but rejected, in
order “to ensure the adequacy of representation, to

App. 16
protect the integrity of the court, and to avoid future
attacks over adequacy of waiver and fairness of trial.”
United States v. Harris, No. 4:07-CR-59 (CDL), 2008
WL 360626, at *3 (M.D. Ga. Feb. 8, 2008) (citation omitted).6
For the reasons stated, Lee, Bennett, and their
ﬁrm are disqualiﬁed from representing any of the defendants in this case,7 and the Court will afford the
6

As the government points out, [Doc. 75 at 4-5], the waivers
signed by the defendants include the statements that the defendants “believe that [their] lawyers are in a unique position to raise
certain legal issues pertaining to the investigation and prosecution of [their] case,” and “that joint representation will allow
[them] to avail [themselves] of certain strategies and defenses
that would be unavailable to [them] if [they] were represented
separately from [their] co-defendants by a public defender, private retained counsel, or private appointed counsel, [Doc. 73-1 at
4-5, 7-8, 10-11, 13-14, 16-17, 19-20]. Lee and Bennett attempted
to explain these statements during the ex parte portion of the Rule
44(c) hearing, but the Court is not persuaded that there is any
unique or otherwise unavailable tactical advantage to the defendants being jointly represented by Lee and Bennett. Moreover,
given that some of the defendants have a limited education and
no prior experience with the United States criminal justice system, their waivers are suspect to the extent they relied on these
dubious representations when electing to execute the waiver.
Wheat, 486 U.S. at 163 (recognizing that potential conﬂicts of interest are “even more difﬁcult to convey by way of explanation to
a criminal defendant untutored in the niceties of legal ethics.”).
7
The Court has considered whether Lee and Bennett could
continue to represent one of the defendants in this case, but concludes that a serious potential conﬂict of interest would remain
based on their representation of all six of the defendants with
whom they have discussed the case in concluding to pursue a
common defense strategy. Moreover, other potential conf licts
arising from their representation of additional individuals were
apparent based on the ex parte portion of the hearing, which

App. 17
defendants 14 days from the entry of this Order to retain new counsel of their choice or to request appointment of counsel if they qualify.8
IT IS SO ORDERED, this 22nd day of March,
2019.
/s/ Russell G. Vineyard
RUSSELL G. VINEYARD
UNITED STATES
MAGISTRATE JUDGE

further persuades the Court that Lee, Bennett, and their ﬁrm
must be disqualiﬁed from representing any of the defendants in
this case. See Ross, 33 F.3d at 1523.
8
Counsel have not submitted the information regarding the
payment of their fees that the Court inquired about at the hearing, despite follow-up requests by the undersigned’s Courtroom
Deputy Clerk. See United States v. Padilla-Martinez, 762 F.2d
942, 949 (11th Cir. 1985). The Court will pursue this matter and
whether any portion of the fees paid should be refunded separately from this order.

App. 18
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
UNITED STATES
OF AMERICA,
v.
EDUARDO LOPEZ,
Defendant.

:
:
: CRIMINAL ACTION NO.
: 1:19-CR-077-LMM-JSA
:
:
ORDER

(Filed Jun. 18, 2019)
This case comes before the Court on Defendant
Martinez’s Motion for Review of Magistrate Judge’s
Detention Order [62]. On February 20, 2019, the
Magistrate Judge denied bond, finding that there
was a serious risk Defendant would not appear and
was a danger to the community for the following reasons:
According to the sworn afﬁdavit testimony,
the Defendant participated in a very large
methamphetamine production operation, which
involved signiﬁcant levels of sophistication
and substantial amounts of cash ﬂow. It is evident that such operation is connected to a
larger drug trafﬁcking operation likely with
international ties that likely has signiﬁcant
resources to assist with ﬂight. The case involves use of prepaid or burner phones which

App. 19
is very difﬁcult to address with supervision.
Other reasons discussed in Court.
MJ Order, Dkt. No. [29] at 1.
The Magistrate Judge also noted at the hearing
that there were wiretap calls, which paired with surveillance, indicated that Defendant communicated
with the courier who delivered loads of liquid methamphetamine to the district and subsequently conﬁrmed
when the loads arrived on two occasions. Search of his
residence also produced surveillance cameras, which
were allegedly to be used in the counter-surveillance
plan as per the wire conversations. And the utility bills
for the conversion lab house were in Defendant’s name.
See Hr’g Tr., Dkt. No. [63-1] a 23-24.
Defendant argues that this Court should grant his
appeal and set bond conditions because: he is a U.S.
citizen; he has connections to the Northern District of
Georgia; he has a well-established employment history; he supports his wife and their child; he has a
stable residence; and he is also not a risk of ﬂight. See
Dkt. No. [62]. Defendant also argues that Law Enforcement’s conduct post-arrest and pre-appearance before
the Magistrate Judge demands his release. See id.
On May 14, 2019, this Court ordered Defendant to
supplement his motion by June 7, 2019 to “speciﬁcally
outline the reasons the Court should release Defendant, including what speciﬁc steps will be taken to minimize Defendant’s risk of ﬂight and danger to the
community.” Dkt. No. [137]. Defendant failed to ﬁle a
supplement.

App. 20
The Court has conducted an independent review
of the Magistrate Judge’s bond decision in light of Defendant’s objections and agrees with the Magistrate
Judge that detention is appropriate in this case. The
Court again accordingly ADOPTS the Magistrate
Judge’s Order of Detention [27]. See U.S. v. King, 849
F.2d 485, 490 (nth Cir. 1988) (“[B]ased solely on a careful review of the pleadings and the evidence developed
at the magistrate’s detention hearing, the district court
may determine that the magistrate’s factual ﬁndings
are supported and that the magistrate’s legal conclusions are correct. The court may then explicitly adopt
the magistrate’s pretrial detention order. Adoption of
the order obviates the need for the district court to prepare its own written ﬁndings of fact and statement of
reasons supporting pretrial detention.”). Accordingly,
Defendant’s Motion [62] is DENIED.
IT IS SO ORDERED this 17th day of June, 2019.
/s/ Leigh Martin May
Leigh Martin May
United States
District Judge

App. 21
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
UNITED STATES
OF AMERICA,
PLAINTIFF,
VS.
EDUARDO LOPEZ,
DEFENDANT.

)
)
)
)
)
)
)

DOCKET NUMBER
1:19-CR-77-LMM-3
ATLANTA, GEORGIA
DECEMBER 11, 2019

TRANSCRIPT OF GUILTY PLEA PROCEEDINGS
BEFORE THE HONORABLE LEIGH MARTIN MAY,
UNITED STATES DISTRICT JUDGE
APPEARANCES:
FOR THE PLAINTIFF:
TYLER MANN
UNITED STATES ATTORNEY’S OFFICE
ATLANTA, GEORGIA 30303
FOR THE DEFENDANT:
STEVEN BERNE
LAW OFFICES OF STEVEN BERNE
ATLANTA, GEORGIA 30338
[2] (IN ATLANTA, FULTON COUNTY, GEORGIA, DECEMBER 11, 2019, IN OPEN COURT.)
THE COURT:
MAY BE SEATED.

GOOD AFTERNOON. YOU

App. 22
MR. MANN:

GOOD AFTERNOON.

THE COURT: WE ARE HERE IN CRIMINAL ACTION 19-CR-77, UNITED STATES OF AMERICA VS. EDUARDO LOPEZ.
AND IF COUNSEL WOULD INTRODUCE THEMSELVES FOR THE RECORD, PLEASE.
MR. MANN: YOUR HONOR, TYLER MANN
ON BEHALF OF THE GOVERNMENT.
THE COURT:

OKAY. GOOD AFTERNOON.

MR. BERNE: AND STEVEN BERNE ON
BEHALF OF MR. LOPEZ.
THE COURT:

GOOD AFTERNOON.

AND TO YOU, MR. LOPEZ.
WE ARE HERE TODAY BECAUSE IT’S MY UNDERSTANDING THAT MR. LOPEZ WANTS TO ENTER A PLEA OF GUILTY TO THE SOLE COUNT OF
THE INDICTMENT, AND THAT THERE IS NOT A
PLEA AGREEMENT, BUT, RATHER, A PLEA WITH
COUNSEL FORM; IS THAT CORRECT, MR. BERNE?
MR. BERNE:

YES, YOUR HONOR.

THE COURT: OKAY. AND, MS. BACHELOR, IF YOU COULD SWEAR IN MR. LOPEZ,
PLEASE.
COURTROOM DEPUTY CLERK: WOULD
YOU PLEASE STAND AND RAISE YOUR RIGHT
HAND.

App. 23
(DEFENDANT SWORN.)
THE COURT: AND, MR. LOPEZ, IF YOU
AND MR. BERNE CAN [3] COME TO THE CENTER
PODIUM.
AND, MR. MANN, TO THE SIDE PODIUM,
PLEASE.
AND IF WE COULD VERIFY THE SIGNATURES ON THE PLEA WITH COUNSEL FORM.
MR. MANN: MR. LOPEZ, HAVE YOU REVIEWED THIS FORM ENTITLED PLEA WITH
COUNSEL AND SIGNED IT INDICATING YOUR
DESIRE TO PLEAD GUILTY TO COUNT ONE IN
THE INDICTMENT IN CRIMINAL ACTION NUMBER 1:19-CR-77?
MR. LOPEZ:

CORRECT.

MR. MANN: MR. BERNE, HAVE YOU ALSO
REVIEWED THE FORM AND SIGNED IT INDICATING THAT YOU ARE REPRESENTING MR. LOPEZ
TODAY?
MR. BERNE:
MR. MANN:
HONOR?

YES.
MAY I APPROACH, YOUR

THE COURT: YES, PLEASE. OKAY. THANK
YOU.

App. 24
EDUARDO LOPEZ
AFTER HAVING BEEN FIRST DULY SWORN,
TESTIFIED AS FOLLOWS:
EXAMINATION
BY THE COURT:
Q. MR. LOPEZ, YOU’VE BEEN PLACED UNDER OATH HERE TODAY, AND THAT MEANS
THAT YOU HAVE TO ANSWER ALL THE QUESTIONS ASKED OF YOU COMPLETELY AND TRUTHFULLY. IF YOU WERE KNOWINGLY TO MAKE ANY
FALSE STATEMENT UNDER OATH, THE GOVERNMENT WOULD HAVE THE RIGHT TO PURSUE
PERJURY CHARGES AGAINST YOU. DO YOU UNDERSTAND THAT?
[4] A.

I UNDERSTAND.

Q. BEFORE I CAN ACCEPT YOUR PLEA OF
GUILTY, I NEED TO MAKE SURE THAT YOU’RE IN
THE RIGHT FRAME OF MIND TO MAKE THAT DECISION, THAT YOU UNDERSTAND THE RIGHTS
YOU HAVE AND THE OPTIONS AVAILABLE TO
YOU, AS WELL AS ALL THE CONSEQUENCES OF
PLEADING GUILTY. I ALSO NEED TO MAKE SURE
THAT YOU’RE PLEADING GUILTY BECAUSE YOU
ARE IN FACT GUILTY. SO FOR ME TO DO THIS, I
HAVE A SERIES OF QUESTIONS THAT I’M GOING
TO ASK YOU. BUT IF AT ANY TIME YOU DON’T
UNDERSTAND MY QUESTION OR YOU WANT ME
TO REPEAT IT OR IF YOU WANT TO SPEAK WITH

App. 25
YOUR LAWYER BEFORE ANSWERING, JUST LET
ME KNOW, AND WE’LL STEP THROUGH ALL THESE
QUESTIONS. DO YOU UNDERSTAND THAT PROCESS?
A.

FINE.

Q.

HOW OLD ARE YOU?

A.

26.

Q.

AND WHERE WERE YOU BORN?

A.

IN LOS ANGELES, CALIFORNIA.

Q.
IZEN?

IS IT CORRECT THAT YOU ARE A U.S. CIT-

A.

CORRECT.

Q.

CAN YOU READ AND WRITE IN SPANISH?

A.

YES, CORRECT.

Q. IN THE LAST 24 HOURS HAVE YOU HAD
ANY ALCOHOL, PILLS, MEDICINE OR DRUGS OF
ANY KIND?
A.

NO.

Q. HAVE YOU RECENTLY BEEN TREATED
FOR OR SUFFERED FROM [5] ALCOHOLISM OR
DRUG ADDICTION?
A.

NO.

App. 26
Q. HAVE YOU EVER BEEN TREATED OR
HOSPITALIZED FOR ANY MENTAL ILLNESS OR
CONDITION?
A.

NO, NEVER.

Q. DO YOU, TO YOUR KNOWLEDGE, HAVE
ANY EMOTIONAL OR MENTAL DISABILITIES?
A.

NO.

THE COURT: MR. BERNE, HAS MR. LOPEZ
TOLD YOU ANYTHING ABOUT MEDICATION, PILLS,
DRUGS, ALCOHOL OR OTHER FACTORS WHICH
MIGHT AFFECT HIS ACTIONS TODAY OR DO YOU
KNOW OF ANY?
MR. BERNE:

NO, YOUR HONOR.

THE COURT: AND DO YOU HAVE ANY
DOUBTS AS TO HIS COMPETENCY TO PLEA AT
THIS TIME?
MR. BERNE:

NO, I DO NOT.

BY THE COURT:
Q. NOW, MR. LOPEZ, I’M GOING TO GO OVER
A NUMBER OF RIGHTS THAT THE CONSTITUTION AND LAWS OF THE UNITED STATES GUARANTEE TO YOU BECAUSE I NEED TO MAKE SURE
THAT YOU UNDERSTAND THESE RIGHTS, AND,
VERY IMPORTANTLY, THAT YOU WAIVE A NUMBER OF THESE RIGHTS IF YOU DECIDE TO
PLEAD GUILTY. YOU HAVE A RIGHT TO PLEAD
NOT GUILTY TO THE CHARGE AGAINST YOU

App. 27
AND HAVE A SPEEDY, PUBLIC, JURY TRIAL OR
COURT TRIAL IN THIS CASE. DO YOU UNDERSTAND THAT?
[6] A.

I UNDERSTAND.

Q. YOU HAVE A RIGHT TO INSIST ON A NOT
GUILTY PLEA NO MATTER WHAT ANYONE ELSE
TELLS YOU. DO YOU UNDERSTAND THAT?
A.

I UNDERSTAND, YES.

Q. DO YOU UNDERSTAND THAT YOU ARE
PRESUMED TO BE INNOCENT OF THE CHARGE
AGAINST YOU UNLESS AND UNTIL AT TRIAL
THE GOVERNMENT PROVES YOU ARE GUILTY
OF THE OFFENSE WITH WHICH YOU ARE
CHARGED?
A.

YES, I UNDERSTAND.

Q. NOW, IN ORDER TO OVERCOME YOUR
PRESUMPTION OF INNOCENCE AND HAVE YOU
FOUND GUILTY AT A TRIAL, THE GOVERNMENT
WOULD HAVE TO PROVE THAT YOU WERE
GUILTY BEYOND A REASONABLE DOUBT USING
ONLY COMPETENT, ADMISSIBLE EVIDENCE. DO
YOU UNDERSTAND THAT?
A.

YES, I UNDERSTAND.

Q. DO YOU UNDERSTAND THAT AT A TRIAL
YOU WOULD HAVE A RIGHT TO CONFRONT THE
WITNESSES AGAINST YOU, TO BE PRESENT, TO
SEE AND HEAR ALL THE EVIDENCE AND WITNESSES CALLED TO TESTIFY AGAINST YOU, AND

App. 28
TO QUESTION AND CROSS-EXAMINE THE WITNESSES THROUGH YOUR LAWYER?
A.

OKAY. I UNDERSTAND.

Q. DO YOU UNDERSTAND THAT YOU
WOULD HAVE THE RIGHT TO USE THE SUBPOENA POWER OF THE COURT TO REQUIRE THE
ATTENDANCE OF ANY WITNESSES OR EVIDENCE ON YOUR BEHALF WHETHER THE WITNESSES WANTED TO COME TO COURT OR NOT?
A.

OKAY.

[7] Q. AT SUCH A TRIAL YOU WOULD HAVE
THE RIGHT TO THE ASSISTANCE OF YOUR LAWYER, YOU WOULD BE CONTINUED TO BE REPRESENTED BY YOUR CURRENT LAWYER, BUT IF
YOU HAD SOME FALLING OUT WITH HIM, YOU
COULD HIRE YOUR OWN LAWYER, OR IF YOU
COULD NOT AFFORD A LAWYER, UPON YOUR
REASONABLE APPLICATION I WOULD APPOINT
A DIFFERENT LAWYER TO REPRESENT YOU AT
NO COST. DO YOU UNDERSTAND THAT?
A.

I UNDERSTAND.

Q. AT SUCH A TRIAL YOU WOULD HAVE
THE RIGHT TO TESTIFY AND PRESENT EVIDENCE OR YOU COULD REMAIN COMPLETELY
SILENT. YOU COULD NOT BE FORCED TO TESTIFY OR PRODUCE ANY EVIDENCE OR ANY WITNESSES. IF YOU DID NOT TESTIFY, THOSE FACTS
COULD NOT BE CONSIDERED AGAINST YOU IN

App. 29
DETERMINING WHETHER YOU WERE GUILTY.
DO YOU UNDERSTAND THAT?
A.

I UNDERSTAND.

Q. DO YOU UNDERSTAND THAT YOU WOULD
HAVE THE RIGHT AT TRIAL TO HAVE THE JURY
RENDER A UNANIMOUS VERDICT BEFORE YOU
COULD BE CONVICTED?
A.

YEAH. OKAY. I UNDERSTAND.

Q. DO YOU UNDERSTAND THAT BY ENTERING A PLEA OF GUILTY, THERE WILL BE NO
TRIAL, AND I WILL SIMPLY ENTER A JUDGMENT
OF GUILTY AND SENTENCE YOU ON THE BASIS
OF YOUR GUILTY PLEA?
A.

I UNDERSTAND.

Q. BY PLEADING GUILTY, DO YOU UNDERSTAND THAT YOU WILL ALSO HAVE TO WAIVE
YOUR RIGHT NOT TO INCRIMINATE YOURSELF
BECAUSE I [8] WILL HAVE TO ASK YOU QUESTIONS ABOUT WHAT YOU DID TO SATISFY MYSELF THAT YOU ARE GUILTY AS CHARGED, AND
YOU ARE GOING TO HAVE TO ACKNOWLEDGE
YOUR GUILT?
A.

YES, I UNDERSTAND.

Q. DO YOU UNDERSTAND THAT BY PLEADING GUILTY ALL THAT WILL BE LEFT IS FOR ME
TO SENTENCE YOU. THE ONLY RIGHTS OF
THOSE I’VE EXPLAINED TO YOU THAT YOU
KEEP AFTER A PLEA OF GUILTY IS THE RIGHT

App. 30
TO HAVE A LAWYER REPRESENT YOU, ADVISE
YOU ABOUT THE CASE, TALK TO YOU ABOUT
YOUR OPTIONS, ARGUE ON YOUR BEHALF AT
SENTENCING, AND TO APPEAL ANY LEGAL DEFECT IN YOUR PLEA OR SENTENCE? DO YOU UNDERSTAND THAT?
A.

I UNDERSTAND.

THE COURT: SO AT THIS TIME I’M GOING
TO ASK MR. MANN TO IDENTIFY THE CHARGE
TO WHICH YOU INTEND TO PLEAD GUILTY AND
WHAT THE ELEMENTS OF THAT CHARGE ARE.
AND I’M GOING TO ASK YOU TO LISTEN CAREFULLY BECAUSE AFTER HE’S FINISHED I’M GOING TO ASK YOU IF YOU UNDERSTAND WHAT
YOU’RE BEING CHARGED WITH.
SO, MR. MANN.
MR. MANN: YOUR HONOR, THE DEFENDANT IS CHARGED IN A ONE-COUNT INDICTMENT,
A VIOLATION OF TITLE 21, UNITED STATES
CODE, SECTION 841(A), 846 AND 841(B) (1)(A),
WITH CONSPIRACY TO POSSESS WITH INTENT
TO DISTRIBUTE A CONTROLLED SUBSTANCE. IN
ORDER TO PROVE THE DEFENDANT’S GUILT,
THE GOVERNMENT WOULD HAVE TO PROVE
BEYOND A REASONABLE DOUBT THAT THE
DEFENDANT AND OTHERS KNOWINGLY AND
WILLFULLY FORMED A COMMON PLAN WITH
AN [9] ILLEGAL PURPOSE, THAT PURPOSE BEING TO POSSESS WITH INTENT TO DISTRIBUTE
A CONTROLLED SUBSTANCE, IN THIS CASE,

App. 31
METHAMPHETAMINE, A SCHEDULE TWO CONTROLLED SUBSTANCE. AND FOR SENTENCING
PURPOSES THE GOVERNMENT WOULD ALSO
HAVE TO PROVE THAT THE AMOUNT OF METHAMPHETAMINE CONTEMPLATED BY THE CONSPIRACY WAS AT LEAST 500 GRAMS.
THE COURT:

OKAY. THANK YOU.

MR. BERNE, DO YOU HAVE ANY DISAGREEMENTS WITH THE GOVERNMENT’S RECITATION OF THE CHARGE AND ITS ELEMENTS?
MR. BERNE:

NO, YOUR HONOR.

BY THE COURT:
Q. MR. LOPEZ, DO YOU UNDERSTAND WHAT
YOU’RE BEING CHARGED WITH?
A.

YES, I UNDERSTAND.

THE COURT: NOW, I’M ALSO GOING TO
HAVE MR. MANN SUMMARIZE THE EVIDENCE
THAT THEY WOULD HAVE PRESENTED TO THE
JURY IF THIS CASE HAD GONE TO TRIAL. AND,
AGAIN, I’M GOING TO ASK YOU TO LISTEN VERY
CAREFULLY BECAUSE THIS IS WHAT THE GOVERNMENT SAYS YOU’VE DONE TO VIOLATE THIS
LAW. AND AS HE’S DETAILING ALL THE DIFFERENT THINGS THAT YOU’VE DONE, IF THERE’S
ANYTHING THAT YOU DISAGREE WITH, IT’S GOING TO BE VERY IMPORTANT FOR YOU TO LET
ME KNOW WHAT THAT IS EVEN IF YOU THINK
IT’S JUST A MINOR POINT.

App. 32
SO, MR. MANN.
MR. MANN: YOUR HONOR, IF THIS CASE
PROCEEDED TO [10] TRIAL, THE GOVERNMENT
WOULD EXPECT TO PROVE WITH ADMISSIBLE
EVIDENCE THE FOLLOWING: IN SEPTEMBER
2018, D.E.A. BEGAN A WIRETAP INVESTIGATION
OF A MEXICO-BASED DRUG TRAFFICKING AND
MONEY LAUNDERING ORGANIZATION OPERATING IN GWINNETT COUNTY IN THE METRO ATLANTA AREA. AGENTS DETERMINED THAT THE
ORGANIZATION WAS RECEIVING LARGE SHIPMENTS OF LIQUID METHAMPHETAMINE, COOKING IT INTO CRYSTAL FORM AT 2170 MOUNTAIN
ROAD IN MILTON IN THE NORTHERN DISTRICT
OF GEORGIA, AND THEN TRANSPORTING THE
FINAL PRODUCT TO 4317 HEARN ROAD IN ELLENWOOD, ALSO IN THE NORTHERN DISTRICT
OF GEORGIA, TO BE SOLD.
ON FEBRUARY 1ST, 2019, AGENTS INTERCEPTED
COMMUNICATIONS BETWEEN CO-DEFENDANT
PACHECO-ROMERO AND DEFENDANT INDICATING THAT A SHIPMENT OF LIQUID METHAMPHETAMINE WAS ON ITS WAY. THAT EVENING
PACHECO-ROMERO INFORMED THE DEFENDANT THAT MONEY HAD BEEN DELIVERED. THE
DEFENDANT RESPONDED THAT HE COULD NOT
RETRIEVE IT BECAUSE HE WAS WAITING FOR,
QUOTE, WHAT WAS COMING. AT 10:30 THE FOLLOWING MORNING IN AN INTERCEPTED CALL,
THE DEFENDANT TOLD PACHECO-ROMERO TO

App. 33
INFORM CO-DEFENDANT SANCHEZ THAT THE
LOAD WOULD ARRIVE IN TWO HOURS.
AT APPROXIMATELY 2 P.M. DEFENDANT
CALLED PACHECO-ROMERO’S PHONE AND TOLD
THE UNIDENTIFIED MAN WHO ANSWERED TO
INFORM PACHECO-ROMERO THAT, QUOTE, IT WAS
DONE. ABOUT FIVE HOURS LATER PACHECOROMERO ASKED CO-DEFENDANT CARDENAS,
QUOTE, IF IT WAS DONE. AND CARDENAS REPLIED THAT, QUOTE, THEY JUST HAD THE LAST
ONE TO BE UNLOADED. PACHECO-ROMERO
THEN ASKED IF [11] CO-DEFENDANT MENDOZA
WAS ALREADY WORKING ON IT. CARDENAS
THEN PASSED THE PHONE TO MENDOZA WHO
TOLD PACHECO-ROMERO ABOUT HIS PREPARATIONS FOR THE COOKING PROCESS.
A LITTLE AFTER 10:30 A.M. ON FEBRUARY 7TH,
2019, AGENTS INTERCEPTED COMMUNICATIONS
BETWEEN THE DEFENDANT AND PACHECOROMERO THAT INDICATED THAT ANOTHER SHIPMENT OF LIQUID METHAMPHETAMINE WOULD
ARRIVE THE FOLLOWING DAY. ON THE AFTERNOON
OF FEBRUARY 8TH, 2019, AGENTS INTERCEPTED
COMMUNICATIONS BETWEEN AN UNIDENTIFIED
CO-CONSPIRATOR AND THE DEFENDANT IN
WHICH THE DEFENDANT SEEMED TO INDICATE THAT HE HAD RECEIVED A NEW SHIPMENT OF LIQUID METHAMPHETAMINE. THAT
NIGHT PACHECO-ROMERO CALLED MENDOZA
AND ASKED IF HE HAD, QUOTE, FINALIZED
ANY. MENDOZA RESPONDED THAT HE HAD

App. 34
FINALIZED 15, WHICH AGENTS INTERPRETED
TO MEAN THAT MENDOZA HAD CONVERTED 15
KILOGRAMS OF LIQUID METH INTO ITS FINAL
CRYSTAL FORM.
ON FEBRUARY 9TH, 2019, AGENTS EXECUTED
SEARCH WARRANTS AT THE HEARN ROAD
HOUSE, THE MOUNTAIN ROAD HOUSE, AND FOUR
OTHER LOCATIONS RELEVANT TO THE CONSPIRACY. IN RELEVANT PART AT THOSE LOCATIONS
THEY FOUND MORE THAN 100 KILOGRAMS OF
METHAMPHETAMINE EITHER IN CRYSTAL FORM
OR IN THE PROCESS OF DRYING IN CRYSTAL
FORM, HUNDREDS OF POUNDS OF SUSPECTED
LIQUID METHAMPHETAMINE, HUNDREDS OF
THOUSANDS OF DOLLARS IN CASH, MULTIPLE
CELL PHONES AND DRUG LEDGERS. AT THE
MOUNTAIN ROAD HOUSE AGENTS FOUND THE
AFOREMENTIONED LIQUID METHAMPHETAMINE,
AN ACTIVE METH CONVERSION LAB AND A
HANDGUN IN CLOSE PROXIMITY [12] TO THAT
LAB. AT THE DEFENDANT’S RESIDENCE AGENTS
FOUND DEFENDANT’S PASSPORT, CASH, SURVEILLANCE CAMERAS AND A MONEY COUNTER.
DEFENDANT WAS PRESENT AT THE TIME OF
THAT SEARCH.
THE COURT:

OKAY. THANK YOU.

MR. BERNE, DO YOU HAVE ANY DISAGREEMENTS WITH THE GOVERNMENT’S SUMMARY
OF EVIDENCE?
MR. BERNE:

NO, YOUR HONOR.

App. 35
BY THE COURT:
Q. MR. LOPEZ, WAS THERE ANYTHING THAT
YOU DISAGREED WITH IN THE GOVERNMENT’S
SUMMARY OF EVIDENCE?
A. WHEN THEY TALKED ABOUT THE DEFENDANT, THEY ARE TALKING ABOUT WHAT
WAS FOUND IN MY HOUSE?
MR. MANN:

YES, YOUR HONOR.

MR. BERNE: MAYBE IF YOU CAN READ
THE LAST SENTENCE.
MR. MANN: SURE. AT DEFENDANT’S RESIDENCE AGENTS FOUND DEFENDANT’S PASSPORT, CASH, SURVEILLANCE CAMERAS AND A
MONEY COUNTER.
BY THE COURT:
Q. OKAY. AND LET ME MAKE SURE THAT
IT’S CLEAR. DO YOU HAVE ANY DISAGREEMENTS WITH WHAT THE GOVERNMENT’S SUMMARY OF THE EVIDENCE WAS?
A.

NO.

THE COURT: OKAY. MR. BERNE, HAVE
YOU ADVISED YOUR CLIENT CONCERNING THE
LEGALITY OF ANY STATEMENTS OR CONFESSIONS OR OTHER EVIDENCE THE GOVERNMENT HAS AGAINST HIM?

App. 36
[13] MR. BERNE: YOUR HONOR, I HAVE
WITH THE PROVISION THAT I WAS REAPPOINTED TO REPRESENT MR. LOPEZ AFTER HIS
CASE WAS CERTIFIED READY FOR TRIAL. SO, IN
ALL HONESTY, I DID NOT FOCUS MY ATTENTION
AS MUCH ON THE LEGALITY OF EVIDENCE, AS
THAT ISSUE HAD ALREADY BEEN RESOLVED
PRIOR TO MY REAPPOINTMENT.
THE COURT: OKAY. AND, TO YOUR
KNOWLEDGE, IS HE PLEADING GUILTY BECAUSE
OF ANY ILLEGALLY OBTAINED EVIDENCE IN THE
POSSESSION OF THE GOVERNMENT?
MR. BERNE:

NOT TO MY KNOWLEDGE.

THE COURT: NOW, MR. MANN, IF YOU
WOULD PROVIDE THE MAXIMUM PUNISHMENT
FOR THIS PARTICULAR OFFENSE.
MR. MANN: THE MAXIMUM TERM OF
IMPRISONMENT IS LIFE, THE MANDATORY MINIMUM TERM OF IMPRISONMENT IS TEN YEARS,
TERM OF SUPERVISED RELEASE IS FIVE YEARS
TO LIFE, THE MAXIMUM FINE IS $10 MILLION,
AND INDICTMENT ALLOWS FOR RESTITUTION
AND FORFEITURE, AND THERE’S A MANDATORY
SPECIAL ASSESSMENT OF A HUNDRED DOLLARS.
THE COURT: OKAY. MR. BERNE, DO YOU
HAVE ANY DISAGREEMENTS WITH THE GOVERNMENT’S STATEMENT ON THE MAXIMUM
PUNISHMENTS AND MANDATORY MINIMUM?

App. 37
MR. BERNE:

NO, YOUR HONOR.

BY THE COURT:
Q. MR. LOPEZ, DO YOU UNDERSTAND THAT
IF YOU PLEAD GUILTY I CAN IMPOSE THE SAME
SENTENCE ON YOU AS IF YOU HAD A TRIAL AND
WERE FOUND GUILTY AFTER THAT TRIAL?
[14] A.

YES, I UNDERSTAND.

Q. DO YOU UNDERSTAND THAT IT IS
SOLELY UP TO ME TO DECIDE ON YOUR SENTENCE?
A.

YES, I UNDERSTAND.

Q. DO YOU UNDERSTAND THAT IF YOU RECEIVE A SENTENCE THAT IS HARSHER THAN
WHAT YOU THOUGHT YOU MIGHT GET, YOU
WOULD NOT BE ALLOWED TO WITHDRAW YOUR
PLEA OF GUILTY?
A.

I UNDERSTAND.

Q. DO YOU UNDERSTAND THAT EVEN
THOUGH THE GOVERNMENT MAY NOT BRING
ADDITIONAL CHARGES BASED ON SOME OTHER
CONDUCT THEY MAY KNOW ABOUT, I MIGHT
STILL CONSIDER THAT CONDUCT AT SENTENCING?
A.

OKAY. I UNDERSTAND.

Q. DO YOU UNDERSTAND IF I SENTENCE YOU
TO PRISON FOR THIS CHARGE, THE FEDERAL

App. 38
PRISON SYSTEM CALCULATES TIME SERVED
DIFFERENTLY THAN MOST STATE PRISON SYSTEMS, AND YOU WOULD LIKELY END UP SERVING NEARLY ALL OF THE FEDERAL SENTENCE I
IMPOSE?
A.

YES, I UNDERSTAND.

Q. DO YOU UNDERSTAND THAT I HAVE TO
CALCULATE AND AT LEAST CONSIDER A RANGE
FOR YOU UNDER THE UNITED STATES SENTENCING GUIDELINES WHICH CATEGORIZE
ALL FEDERAL CRIMES AND ASSIGN POINTS DUE
TO THE SERIOUSNESS OF THE OFFENSE, YOUR
ROLE IN IT AND OTHER SPECIFIC CHARACTERISTICS SUCH AS THE AMOUNT OF DRUGS INVOLVED? THE GUIDELINES ALSO TAKE INTO
ACCOUNT YOUR PRIOR CRIMINAL RECORD, IF
ANY, AND THE RESULT IS A SCORE THAT [15]
REPRESENTS A RANGE OF MONTHS OF INCARCERATION. THE GUIDELINES ARE ADVISORY,
BUT I DO HAVE TO CALCULATE AND CONSIDER
THE RANGE THAT APPLIES TO YOU. DO YOU UNDERSTAND THAT?
A.

I UNDERSTAND.

Q. DO YOU UNDERSTAND THAT IT IS NOT
POSSIBLE TO DETERMINE YOUR GUIDELINES
UNTIL AFTER THE PRESENTENCE REPORT
HAS BEEN COMPLETED AND YOU AND THE
GOVERNMENT HAVE HAD AN OPPORTUNITY TO
CHALLENGE THE FACTS REPORTED BY THE
PROBATION OFFICER?

App. 39
A.

OKAY. I UNDERSTAND.

Q. DO YOU UNDERSTAND THAT AFTER IT
HAS BEEN DETERMINED WHAT YOUR GUIDELINES ARE, I HAVE THE AUTHORITY TO IMPOSE
A SENTENCE THAT IS MORE OR LESS SEVERE
THAN WHAT’S CALLED FOR BY THE GUIDELINES?
A.

I UNDERSTAND.

Q. DO YOU UNDERSTAND IF YOU ARE ON
PROBATION OR PAROLE, A PLEA OF GUILTY MAY
RESULT IN THE REVOCATION OF YOUR PROBATION OR PAROLE?
A.

OKAY.

Q. DO YOU UNDERSTAND THAT THE SENTENCE IMPOSED IN THIS CASE MAY RUN CONSECUTIVELY, THAT IS, ON TOP OF OR FOLLOWING
ANY OTHER SENTENCE YOU MIGHT NOW BE
SERVING?
A.

OKAY. I UNDERSTAND.

Q. DO YOU UNDERSTAND THAT A PLEA OF
GUILTY IN THIS CASE MAY BE TAKEN INTO CONSIDERATION IN THE EVENT IN THE FUTURE
YOU ARE CONVICTED OF ANOTHER OFFENSE
AND POTENTIALLY MAKE THAT SENTENCE [16]
LONGER?
A.

OKAY. I UNDERSTAND.

App. 40
Q. DO YOU UNDERSTAND THAT YOUR CONVICTION IN THIS CASE MAY BE TAKEN INTO
CONSIDERATION BY EMPLOYERS AND EDUCATIONAL INSTITUTIONS OR OTHER ENTITIES,
INCLUDING, BUT NOT LIMITED TO, YOUR QUALIFICATIONS FOR THE RECEIPT OF SOME PUBLIC
BENEFITS OR YOUR ABILITY TO OBTAIN OR
HOLD CERTAIN EMPLOYMENT POSITIONS?
A.

OKAY. I UNDERSTAND.

Q. DO YOU UNDERSTAND THAT THE OFFENSE TO WHICH YOU ARE PLEADING GUILTY
IS A FELONY, AND IF YOUR PLEA IS ACCEPTED
AND YOU ARE FOUND GUILTY, THEN SUCH A
FINDING MAY DEPRIVE YOU OF VALUABLE
CIVIL RIGHTS SUCH AS THE RIGHT TO VOTE,
THE RIGHT TO HOLD PUBLIC OFFICE, THE
RIGHT TO SERVE ON A JURY, AS WELL AS THE
RIGHT TO POSSESS ANY KIND OF FIREARM?
A.

OKAY. I UNDERSTAND.

THE COURT: MR. MANN, HAS THE GOVERNMENT OFFERED A PLEA AGREEMENT IN
THIS CASE?
MR. MANN:

YES, YOUR HONOR.

BY THE COURT:
Q. MR. LOPEZ, WERE YOU AWARE THAT
THE GOVERNMENT OFFERED A PLEA AGREEMENT IN THIS CASE?
A.

YES, I UNDERSTAND.

App. 41
Q. AND DID YOU DISCUSS THE OFFER
WITH YOUR LAWYER AND HAS HE ANSWERED
ALL YOUR QUESTIONS ABOUT IT?
A.

YES.

[17] Q. KNOWING THAT THERE WAS A PLEA
AGREEMENT THAT YOU DID NOT ACCEPT, DO
YOU STILL WANT TO GO FORWARD AND PLEAD
GUILTY?
A.

YES.

Q. DO YOU UNDERSTAND THAT YOU MAY
BE SENTENCED TO A TERM OF SUPERVISED RELEASE, AND THAT IF YOU VIOLATE THE CONDITIONS OF RELEASE, YOU CAN BE SENT TO
PRISON FOR THE ENTIRE TERM OF SUPERVISED
RELEASE?
A.

YES, I UNDERSTAND.

Q. DO YOU UNDERSTAND THAT YOU WILL
BE ORDERED TO PAY A SPECIAL ASSESSMENT
OF A HUNDRED DOLLARS FOR THE CHARGE TO
WHICH YOU ARE PLEADING GUILTY?
A.

I UNDERSTAND.

Q. DO YOU KNOW THAT YOU MAY BE ORDERED TO MAKE RESTITUTION TO ANY VICTIMS
OF THE OFFENSE?
A.

OKAY. I UNDERSTAND.

App. 42
Q. DO YOU KNOW THAT YOU MAY BE SUBJECT TO FORFEITURE PROCEEDINGS RELATED
TO THE OFFENSE?
A.

YES, I UNDERSTAND.

Q. HAS ANYONE MADE YOU ANY PROMISES
OR REPRESENTATIONS TO GET YOU TO PLEAD
GUILTY?
A.

NO.

Q. HAS ANYONE THREATENED, PRESSURED,
FORCED, OR INTIMIDATED YOU, OR SOMEONE
YOU ARE CLOSE TO, TO GET YOU TO GIVE UP
YOUR RIGHTS AND PLEAD GUILTY?
A.

NO, NO ONE.

[18] Q. HAS ANYONE MADE A PROMISE TO
YOU AS TO WHAT YOUR ACTUAL SENTENCE
WILL BE?
A.

NO, NO ONE.

Q. ARE YOU PLEADING GUILTY BECAUSE
YOU ARE IN FACT GUILTY?
A.

YES.

Q. ARE YOU SATISFIED WITH THE SERVICES YOUR LAWYER HAS PROVIDED YOU SO
FAR IN THE CASE?
A.

YES.

App. 43
Q. HAVE YOU HAD ENOUGH TIME TO TALK
WITH YOUR LAWYER AND DISCUSS THE CASE
AND YOUR DECISION TO PLEAD GUILTY?
A.

YES.

Q. IS THERE ANYTHING YOU WANTED TO
ASK ME ABOUT OR ASK YOUR LAWYER ABOUT
BEFORE I ASK YOU TO ENTER YOUR PLEA?
A.

NO, NONE.

THE COURT: MR. BERNE, IS THERE ANY
REASON THAT YOU KNOW ABOUT THAT I
SHOULD NOT ACCEPT YOUR CLIENT’S PLEA OF
GUILTY?
MR. BERNE:

NO, YOUR HONOR.

THE COURT: MR. MANN, WAS THERE
ANYTHING ELSE YOU WANTED ME TO ASK OF
MR. LOPEZ AT THIS TIME?
MR. MANN: NO, YOUR HONOR, BUT, FIRST
OF ALL, I APPRECIATE YOUR GOING THROUGH
THE QUESTIONS ABOUT THE PRIOR PLEA AGREEMENT. I WOULD ASK THAT YOU ALLOW ME TO
BRIEFLY ELABORATE ON THOSE OFFERS.
THE COURT:

OKAY.

[19] MR. MANN: FOR THE SAKE OF THE
RECORD, THERE WERE ACTUALLY TWO OFFERS
MADE IN THE CASE. THE FIRST WAS MADE
WITHOUT ANY PROMPTING FROM THE DEFENDANT. IT WAS THE GOVERNMENT’S ORIGINAL

App. 44
OFFER. I JUST WANT TO VERY BRIEFLY PUT
THE GUIDELINES STIPULATIONS FROM THAT
AGREEMENT ON THE RECORD. THE AGREEMENT INCLUDED A STIPULATION FROM BOTH
PARTIES THAT THE OFFENSE INVOLVED AT
LEAST 45 KILOGRAMS OF METHAMPHETAMINE
WHICH RESULTED IN A BASE OFFENSE LEVEL
OF 38 -- EXCUSE ME, JUDGE -- THAT THE DEFENDANT SHOULD RECEIVE A TWO-LEVEL UPWARD ADJUSTMENT BECAUSE A DANGEROUS
WEAPON WAS POSSESSED IN CONNECTION
WITH THE CRIME; THAT THE DEFENDANT SHOULD
RECEIVE AN ADDITIONAL TWO-LEVEL UPWARD
ADJUSTMENT BECAUSE A PREMISES WAS MAINTAINED IN ORDER TO DISTRIBUTE THE CONTROLLED SUBSTANCE. THE GOVERNMENT HAD
OFFERED A THREE-POINT -- A RECOMMENDATION OF A THREE-POINT DOWNWARD VARIANCE IN ORDER TO ACHIEVE SECTION 3553(A)’S
GOALS OF A FAIR AND REASONABLE SENTENCE,
OF A AGREEMENT CONTAINED -- THIS IS THE
FIRST OFFER -- CONTAINED A STIPULATION OF
SAFETY VALVE ELIGIBILITY AND INCLUDED AN
AGREEMENT FROM THE GOVERNMENT TO RECOMMEND THE MAXIMUM POSSIBLE BENEFIT
FOR ACCEPTANCE OF RESPONSIBILITY.
THE SECOND AGREEMENT INCLUDED ONLY
A STIPULATION THAT THE ACTIVITY INVOLVED
45 KILOGRAMS OR MORE OF METHAMPHETAMINE AND THAT THAT RESULTED IN A BASE OFFENSE LEVEL OF 38. THE OTHER STIPULATIONS

App. 45
FOR THE GUIDELINES WERE NOT IN THAT
AGREEMENT. I BELIEVE THOSE ARE THE RELEVANT PARTS OF THE AGREEMENTS. THANK [20]
YOU, YOUR HONOR.
BY THE COURT:
Q. OKAY. AND, MR. LOPEZ, I’M NOT HERE TO
CONVINCE YOU ONE WAY OR THE OTHER TO
PLEA UNDER A PLEA AGREEMENT OR TO PLEA
AS YOU’VE PROCEEDED SO FAR TODAY. IT’S
JUST IMPORTANT THAT I MAKE SURE THAT YOU
WERE AWARE OF THE PLEA AGREEMENT AND
THAT YOU UNDERSTOOD WHAT THE TERMS OF
IT WERE BEFORE YOU MADE YOUR DECISION.
SO I’M NOT HERE TO TELL YOU ONE WAY OR THE
OTHER WHAT YOU SHOULD DO. I JUST HAVE
TO MAKE SURE THAT YOU’RE AWARE OF YOUR
OPTIONS. SO THE GOVERNMENT JUST SUMMARIZED SOME OF THE TERMS OF THE PLEA
AGREEMENT. WERE YOU FAMILIAR WITH THOSE
TERMS WHEN WE TALKED ABOUT YOUR PLEA
AGREEMENT EARLIER?
A.

YES, I DID.

Q. OKAY. AND IT’S YOUR DECISION TO
PLEAD GUILTY WITHOUT GOING UNDER THE
PLEA AGREEMENT; CORRECT?
A.

CORRECT.

THE COURT: OKAY. MR. MANN, WAS
THERE ANYTHING ELSE?

App. 46
MR. MANN:

NO, YOUR HONOR. THANK

YOU.
THE COURT:

OKAY.

BY THE COURT:
Q. MR. LOPEZ, HOW DO YOU PLEA TO THE
CONDUCT CHARGED IN THE INDICTMENT,
GUILTY OR NOT GUILTY?
A.

GUILTY.

Q. AND IS YOUR GUILTY PLEA VOLUNTARY
AND OF YOUR OWN FREE WILL?
[21] A.

CORRECT.

THE COURT: NOW, I’VE LISTENED TO
THE ANSWERS THAT YOU’VE GIVEN TO THE
QUESTIONS I’VE ASKED HERE TODAY. AND ON
THE BASIS OF THE RECORD AND TODAY’S PROCEEDING, I DO FIND THAT YOUR PLEA OF
GUILTY IS KNOWINGLY, VOLUNTARILY AND INTELLIGENTLY MADE. IT IS ON THE ADVICE OF
COMPETENT COUNSEL AND HAS A BASIS OF
FACT THAT COMPREHENDS EACH AND EVERY
ELEMENT OF THE OFFENSE CHARGED TO WHICH
YOU ARE PLEADING GUILTY. I ALSO FIND THAT
YOU WERE AWARE OF THE EXISTENCE OF A
PLEA OFFER FROM THE GOVERNMENT. AND I,
THEREFOR, ACCEPT YOUR PLEA OF GUILTY. MR.
LOPEZ, YOU ARE HEREBY ADJUDGED GUILTY
TO THE CONDUCT CHARGED IN THE INDICTMENT.

App. 47
WE HAVE SET YOUR SENTENCING FOR MONDAY, MARCH THE 2ND, AT 10:00 A.M. IT WILL BE
HERE IN THIS SAME COURTROOM. AND IT’S MY
UNDERSTANDING THAT YOU WILL BE IN CUSTODY, SO YOU’LL BE BROUGHT BACK JUST AS
YOU WERE TODAY SO THAT YOU’LL BE PRESENT
AT YOUR SENTENCING. BUT FOR SOME REASON
IF YOU ARE NOT IN CUSTODY, IT IS YOUR RESPONSIBILITY TO COME BACK HERE AT THAT
DATE AND TIME FOR YOUR SENTENCING. AND
IF YOU FAIL TO APPEAR, YOU CAN BE PROSECUTED FOR A SEPARATE OFFENSE HAVING TO
DO WITH FAILING TO APPEAR.
DO YOU UNDERSTAND THAT?
MR. LOPEZ:

I UNDERSTAND.

THE COURT: COUNSEL, I DO -- I THINK
Y’ALL HAVE BOTH HAD SENTENCINGS IN FRONT
OF ME, BUT I DO REQUIRE A MEMO FIVE [22]
DAYS PRIOR TO THE SENTENCING THAT AT A
MINIMUM DOES INCLUDE YOUR SENTENCING
RECOMMENDATION.
WAS THERE ANYTHING ELSE THAT EITHER
OF YOU WANTED TO BRING UP AT THIS TIME?
MR. MANN:

NO, YOUR HONOR. THANK

MR. BERNE:

NO, YOUR HONOR. THANK

THE COURT:

OKAY. WELL, THANK YOU.

YOU.
YOU.

App. 48
AND THANK YOU, MR. LOPEZ. AND IS THIS
YOUR FAMILY HERE TODAY?
MR. LOPEZ:

YES.

THE COURT: THANK YOU FOR COMING
AS WELL. AND, AS I SAID, THE SENTENCING
WILL BE MONDAY, MARCH THE 2ND, AT 10:00 IF
YOU WANT TO BE PRESENT FOR THAT AS WELL.
SO THANK YOU FOR BEING HERE. AND, WITH
THAT, WE ARE ADJOURNED.
(PROCEEDINGS ADJOURNED.)
[Certificate Omitted]

App. 49
APPENDIX F
Amendment VI to the Constitution of the United
States
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial
jury of the state and district wherein the crime shall
have been committed, which district shall have been
previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be confronted with the witnesses against him; to have compulsory process for obtaining witnesses in his favor,
and to have the assistance of counsel for his defense.

Federal Rule of Criminal Procedure 11. Pleas
(a)

ENTERING A PLEA.

(1) In General. A defendant may plead not guilty,
guilty, or (with the court’s consent) nolo contendere.
(2) Conditional Plea. With the consent of the
court and the government, a defendant may enter a
conditional plea of guilty or nolo contendere, reserving
in writing the right to have an appellate court review
an adverse determination of a speciﬁed pretrial motion. A defendant who prevails on appeal may then
withdraw the plea.
(3) Nolo Contendere Plea. Before accepting a plea
of nolo contendere, the court must consider the parties’
views and the public interest in the effective administration of justice.

App. 50
(4) Failure to Enter a Plea. If a defendant refuses
to enter a plea or if a defendant organization fails to
appear, the court must enter a plea of not guilty.

Federal Rule of Criminal Procedure 44. Right to and
Appointment of Counsel
(a) RIGHT TO APPOINTED COUNSEL. A defendant who is
unable to obtain counsel is entitled to have counsel appointed to represent the defendant at every stage of
the proceeding from initial appearance through appeal, unless the defendant waives this right.
(b) APPOINTMENT PROCEDURE. Federal law and local
court rules govern the procedure for implementing the
right to counsel.
(c)

INQUIRY INTO JOINT REPRESENTATION.
(1) Joint Representation. Joint representation occurs when:
(A) two or more defendants have been
charged jointly under Rule 8(b) or have been
joined for trial under Rule 13; and
(B) the defendants are represented by
the same counsel, or counsel who are associated in law practice.
(2) Court’s Responsibilities in Cases of Joint
Representation. The court must promptly inquire
about the propriety of joint representation and
must personally advise each defendant of the right
to the effective assistance of counsel, including

App. 51
separate representation. Unless there is good
cause to believe that no conﬂict of interest is likely
to arise, the court must take appropriate measures
to protect each defendant’s right to counsel.

